                                        SOCIAL SECURITY

MEMORANDUM

Date:      May 31, 2011                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Overall Disability Claim Times for 2009 (A-01-10-10168)


           The attached final report presents the results of our audit. Our objective was to
           determine the average overall times for Social Security disability claims decided in
           Calendar Year 2009 by the disability determination services, hearing offices, Appeals
           Council, and Federal Courts.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                     Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


       OVERALL DISABILITY
       CLAIM TIMES FOR 2009


     May 2011     A-01-10-10168




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 Executive Summary
OBJECTIVE
Our objective was to determine the average overall times for Social Security disability
claims decided in Calendar Year (CY) 2009 by the disability determination services
(DDS), hearing offices, Appeals Council (AC), and Federal Courts.

BACKGROUND
SSA provides Disability Insurance and Supplemental Security Income disability benefits
to eligible individuals under Titles II and XVI of the Social Security Act. To receive
either benefit, an individual must first file an application with SSA. An SSA field office
then determines whether the individual meets the non-medical criteria for benefits and,
if so, generally forwards the claim to a State DDS for a disability determination.

If the claimant disagrees with the initial disability determination, he or she can file an
appeal within 60 days from the date of notification of the determination. In most cases,
an individual may request up to three levels of administrative review:
(1) reconsideration by the DDS, (2) hearing by an administrative law judge, and
(3) review by the AC. After completing the administrative review process, dissatisfied
claimants may appeal to the Federal Courts.

RESULTS OF REVIEW
The table below shows the average overall times for disability claims completed in
CY 2009 from the date of application to the date of denial or the date SSA paid the
benefits due (including any back payments). It also shows the average overall times for
disability claims completed in CY 2006 that we determined in a prior review.

    Office of the Inspector General’s Measure of Average Overall Claim Time
                               DDS                    Hearing                  Federal
     CY                                                             AC
                 Initial      Reconsideration          Office                  Courts
    2006        131 days         279 days             811 days   1,053 days   1,720 days
    2009        119 days         263 days             812 days   1,164 days   1,895 days

CONCLUSION
Compared to our prior review of CY 2006 cases, the average overall claim times
decreased for disability claims completed at the DDS levels, remained about the same
for disability claims completed at the hearing level, and increased for disability claims
completed at the AC and Federal Court levels.




Overall Disability Claim Times for 2009 (A-01-10-10168)
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Disability Determination Services Sample Results .................................................. 4

Hearing Office Sample Results ............................................................................... 5

Appeals Council Sample Results ............................................................................ 7

Federal Court Sample Results ................................................................................ 8

CONCLUSION ...................................................................................................... 10

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – The Social Security Disability Process

APPENDIX C– Agency Initiatives for Improving Processing Time

APPENDIX D – Scope, Methodology, and Sample Results

APPENDIX E – Sample Cases by Body System and Primary Diagnosis

APPENDIX F – Sample Hearing Office Cases with and Without Reconsideration
             Determinations

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments




Overall Disability Claim Times for 2009 (A-01-10-10168)
                                                                            Introduction
OBJECTIVE
Our objective was to determine the average overall times for Social Security disability
claims decided in Calendar Year (CY) 2009 by the disability determination services
(DDS), hearing offices, Appeals Council (AC), and Federal Courts.

BACKGROUND
The Social Security Administration (SSA) provides Disability Insurance (DI) and
Supplemental Security Income (SSI) disability benefits to eligible individuals under Titles
II and XVI of the Social Security Act. 1 To receive either benefit, an individual must first
file an application with SSA. An SSA field office (FO) representative then determines
whether the individual meets the non-medical criteria for benefits 2 and, if so, generally
forwards the claim to a State DDS for a disability determination. Once the DDS
employee makes a determination, it sends the claim back to the FO for final processing3
or to the Disability Quality Branch (DQB) for review before final processing. 4

If the claimant disagrees with the initial disability determination, he or she can file an
appeal within 60 days from the date of notification of the determination. In most cases,
an individual may request up to three levels of administrative review:
(1) reconsideration by the DDS, (2) hearing by an administrative law judge (ALJ), and
(3) review by the AC. If a claimant is dissatisfied with the AC’s decision, he or she may
appeal to the Federal Courts. (See Appendix B for details about the role each
component plays in SSA’s disability process.)

As a claimant goes through the disability process, his or her condition may worsen or
additional evidence may become available. As a result, he or she may be denied by
one component and allowed by another component.


1
    The Social Security Act §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
2
  For DI benefits, the non-medical criteria include such factors as sufficient earnings. For SSI payments,
the non-medical criteria include such factors as low income and resources.
3
 If the FO cannot process the claim or partially processes the claim (that is, initiates payment but does
not issue any back payments), it will send the claim to the Payment Service Center (PSC) for final
processing.
4
  By statute, the DQB’s review half of all allowances, which are selected by a predictive model. DQBs
also perform a quality assurance review on 70 initial allowances and 70 initial denials per State per
calendar quarter. See the Social Security Act § 221(c)(3)(A), § 42 U.S.C. 421(c)(3)(A). This sample
ensures statistically valid findings for all DDSs irrespective of size. For each review, a Federal quality
reviewer determines whether the record supports the DDS’ determination and whether the evidence and
determination conform to SSA’s policies and procedures.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                      1
In its annual Performance and Accountability Report, SSA has performance measures
for the average processing times of (1) initial disability claims, (2) hearing decisions, and
(3) AC decisions. SSA designed each measure to capture the average processing time
for a specific segment of the disability process, instead of the average overall claim
time. For example, the performance measure for hearings captures the average
processing time from the date the claimant requests a hearing to the date the hearing
office renders a decision, not from the date the claimant first files an application to the
date the hearing office denies or allows the claim and SSA pays the benefits.

See Table 1 for the average processing times that SSA reported in its Fiscal Year
(FY) 2009 Performance and Accountability Report.

              Table 1: Average Processing Times Reported by SSA in FY 2009
      Initial Disability Claims              Hearing Decisions         AC Decisions
               101 days                            491 days               261 days

In December 2008, we issued a report, Disability Claims Overall Processing Times
(A-01-08-18011), in which we determined the average overall times for disability claims
decided in CY 2006. Our measure of average overall claim time was based on how
long, on average, it took a claimant to go through the entire disability process from the
date he or she filed an application until the date SSA denied the claim or awarded the
claim and issued the benefits due at that time. Since CY 2006, SSA has implemented
or modified a number of initiatives to improve processing times. 5 Since the issuance of
our 2008 report, Congress has shown interest in this matter. As a result, we are
conducting this review to measure SSA’s progress since our prior review.

To perform our current review, we obtained files of all disability decisions made in
CY 2009. From these files, we identified

•     2,838,641 individuals who received initial/reconsideration determinations from a
      DDS,
•     620,007 individuals who received decisions from a hearing office,
•     69,897 individuals who received decisions from the AC, and
•     6,041 individuals who received decisions from the Federal Courts.

We randomly selected 275 sample cases from the DDS population and 100 sample
cases from each of the other 3 populations—for a total of 575 cases. For each sample
case, we conducted a detailed analysis to determine the average overall claim times
and the average processing times based on SSA’s performance measures. See
Appendix D for more information on our scope, methodology, and sample results.



5
    See Appendix C for information on these initiatives.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                    2
                                                            Results of Review
We determined the average overall times for disability claims completed in CY 2009.
Table 2 compares these times to the average overall times for disability claims
completed in CY 2006 that we determined in our prior review.

      Table 2: Office of the Inspector General’s Measure of Average Overall Claim Times
                                    DDS                     Hearing                               Federal
        CY                                                                      AC
                       Initial      Reconsideration          Office                               Courts
       2006          131 days            279 days           811 days      1,053 days           1,720 days
              6
       2009          119 days            263 days           812 days      1,164 days           1,895 days
                                                                                     7
     Change            (9.2)%             (5.7)%              0.1%          10.5%                 10.2%

We measured the average overall claim time from the date of application to either the
date of denial or the date SSA paid the benefits due (including any back payments).
Hence, our measure included time over which SSA had no control (for example, mail
time), which we called “Down Time,” and time it took a claimant to file an appeal, which
we called “Appeal Time.” 8 SSA also had no control over the time it took the Federal
Courts to review a case and render a decision.

In addition to comparing the average overall times for disability claims completed in
CYs 2006 and 2009, we compared the number of individuals who received a disability
decision from SSA in these years, as shown in Table 3.

             Table 3: Individuals Who Received a Disability Decision from SSA
                                      DDS (Initial/              Hearing
                    CY                                                                    AC
                                    Reconsideration)              Office
                   2006                    2,618,926                 480,529             64,473
                   2009                    2,838,641                 620,007             69,897
                  Change                         8.4%                  29.0%              8.4%




6
 See Appendix E for information on the primary diagnosis and body systems under which SSA
categorized these sample cases.
7
 In FY 2011, SSA plans to implement a Web-based document generating system that will allow the
automatic transmission of information from the Appeals Review Processing System into final action
documents. Also in FY 2011, the AC plans to add enhancements to another system that will improve
data gathering and provide further data transmission. According to SSA, these systems will improve
consistency, reduce errors, and speed case processing.
8
    In our prior review, we considered the Appeal Time part of the Down Time.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                     3
DDS SAMPLE RESULTS

The DDS obtains and evaluates evidence from medical and other sources to determine
whether a claimant is disabled. If the claimant is dissatisfied with the DDS
determination, the claimant may request that the DDS reconsider it. 9

Based on our review of 275 sample cases, we determined that it took 119 days, 10 on
average, to completely process an initial claim—ranging from 14 days to over 1 year. 11
SSA measured the average processing time from the date of filing to the date the
Agency initiated payment or issued the denial notice, which we determined was
104 days for our CY 2009 sample cases. This measure does not capture all the claim
time because the Agency sometimes determines the back payments after it initiates
payment.

The following timeline shows the average (1) overall time for initial disability claims by
component processing times and Down Time 12 and (2) processing time reported by
SSA.
                      Average Overall Claim Time for Initial Disability Claims (119 days)
    Claimant                                                                                  Claim
    First                                                                   PSC - 2 Days      Completed
    Applied
    for                                                                    DQB - 1 Day
    Disability
                 FO - 26 Days                                           DDS - 85 Days         Down Time - 5 Days



                 20              40             60           80            100               120            140




    Claimant          Average Processing Time Reported by SSA (101 days)         SSA Processed
    First                                                                        Initial Disability
    Applied                                                                      Determination
    for
    Disability




9
 SSA eliminated the reconsideration step for DDSs participating in the Disability Redesign Prototype
(Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches, Colorado, Louisiana,
Michigan, Missouri, New Hampshire, New York, and Pennsylvania).
10
   Assuming the average overall time of the population of DDS cases is normally distributed and using
inferential statistical techniques, we are 90 percent confident the average overall time for the entire
population would be between 113 and 125 days.
11
   Of the 275 sample cases, the DDSs allowed 96 cases (35 percent) and denied 179 cases (65 percent).
In four cases, the claimants died before payments could be initiated; and in two cases, the claimants were
not entitled to payments because they had too much income. For the remaining 90 allowances, it took
14 days, on average, to initiate payment following a DDS determination and an additional 13 days
(including mail and processing times), on average, to issue the back payments.
12
  The component processing times combine all the days each component had the case and do not
necessarily fall in adjudicative order on the timeline. For example, the FO average processing time of
26 days includes time before the claim was sent to a DDS (19 days on average) and time for processing
the claim after it was returned from the DDS (7 days on average). Furthermore, some components did
not process every claim. For example, DQB reviewed only 34 of the 275 initial disability determinations.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                            4
For example, a claimant filed an application in March 2009, and the DDS allowed the
claim a few months later. The DQB then selected this case for review and, upon finding
no errors, sent the case to the FO for processing. In July 2009, the FO processed the
claim and initiated payment. Three weeks later, the PSC issued the back payments due
the claimant at that time. It took 119 days to completely process this claim and 91 days
to process the claim from the filing date to the award processing date.

Of the 275 sample cases, 49 had reconsideration determinations. 13 Based on our
review of these 49 cases, we determined it took 263 days, on average, to completely
process a reconsidered claim—ranging from about 2 to 16 months. SSA does not have
a performance measure for the processing time of reconsiderations. The following
timeline shows the average overall time for reconsideration disability claims by the
component processing times, Appeal Time, and Down Time.
                Average Overall Claim Time for Reconsiderations (263 days)
 Claimant                                                                                   Claim
 First                                                                                      Completed
 Applied
 for                                                           DQB - 1 Day
 Disability                                                                   Appeal Time
                                                                              38 Days       Down Time
                FO - 44 Days                                 DDS - 171 Days                 9 Days



                40             80         120         160          200           240            280




HEARING OFFICE SAMPLE RESULTS

A claimant may request a hearing before an ALJ if he or she is dissatisfied with the
reconsideration determination. When the claimant does not waive his or her right to
appear at the hearing, the ALJ reviews information obtained from questioning the
claimant, his or her representative, and witnesses. In addition, the ALJ reviews the
evidence on file and any additional evidence submitted for consideration. The ALJ then
issues a decision. Under certain circumstances, an attorney advisor may conduct
prehearing proceedings before the hearing. If, after these proceedings are complete,
the attorney advisor can make a decision that is fully favorable, an attorney advisor may
issue the decision. 14

Based on our review of 100 sample cases, we determined it took 812 days, 15 on
average, to completely process a disability claim through the hearing level—ranging

13
  Of these 49 cases, the DDSs upheld the initial determination in 42 cases and reversed the initial
determination in 7 cases.
14
     20 C.F.R. §§ 404.942 and 416.1442.
15
   Assuming the average overall time of the population of hearings cases is normally distributed and using
inferential statistical techniques, we are 90-percent confident the average overall time for the entire
population would be between 768 and 855 days.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                 5
from about 10 months to about 4 years.16 SSA measures the average processing time
from the date the claimant requests a hearing until the date the hearing office issues a
decision, which we determined was 513 days for our CY 2009 sample cases.

The following timeline shows the average (1) overall claim time for hearing office cases
by component processing times, Appeal Time, and Down Time and (2) processing time
reported by SSA. 17
     Claimant               Average Overall Claim Time for Hearing Office Cases (812 days)
     First
     Applied                                                                            PSC - 33 Days         Claim
     for                                                                                                      Completed
     Disability                                                                       DQB - 1 Day

                                                                                                                  Down Time
                                                                      Hearing Of f ice- 478 Days
                                                                                                                   28 Days
           FO - 68 Days         DDS - 140 Days
                                                                                                      Appeal Time
                                                                                                       74 Days


                  75      150       225      300      375     450     525       600         675         750        825




                                 Claimant                                                     ALJ
                                Requested                                                   Issued
                                 Hearing                                                   Decision
                                                    Average Processing Time
                                                   Reported by SSA (491 days)



For example, a claimant filed an application in July 2006, which the DDS denied. The
claimant then requested a reconsideration, which the DDS also denied. In
September 2007, the claimant requested a hearing by an ALJ, who allowed the claim in
February 2009. In March 2009, the FO initiated payment and issued the back payments
due. It took about 2.5 years to completely process this claim and over 1 year to process
the claim from the hearing request date to the ALJ decision date.

Of the 100 sample cases, 65 had reconsideration determinations and 35 did not. The
65 cases with reconsiderations took 842 days, on average, to completely process
through the hearing level, and the 35 cases without reconsiderations took 755 days, on
average, to completely process through the hearing level. Although it took 87 days
longer, on average, to complete cases with reconsiderations than it did to complete
cases without reconsiderations, SSA allowed both groups of cases at a similar rate. For
more information on these two groups of cases, see Appendix F.




16
   Of the 100 sample cases, the ALJs upheld the decision in 19 cases, dismissed 12 cases, and reversed
65 cases, while attorney advisors reversed 4 cases. For all 69 reversals, it took 22 days, on average, to
initiate payment following a hearing level decision and an additional 40 days (including mail time and
processing time), on average, to issue the back payments.
17
  The overall claim time was 812 days. In the timeline, the individual component claim times add up
822 days because the FO and PSC worked on claims at the same time for concurrent allowances.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                                   6
AC SAMPLE RESULTS

If a claimant is dissatisfied with a hearing office decision, he or she may request the AC
review the case. If the AC agrees to review the case, it will consider the evidence on
file, any additional evidence submitted by the claimant, and the hearing office findings
and conclusions. The AC will then (1) uphold or reverse the hearing office decision or
(2) remand the case to the hearing office to issue a new decision, obtain additional
evidence, or take additional action.

Based on our review of 100 sample cases, we determined it took 1,164 days, 18 on
average, to completely process a disability claim through the AC level—ranging from
about 14 months to over 6 years. 19 SSA measures the average processing time from
the date the claimant requests an AC review to the date the AC makes a decision,
which we determined was 268 days for our CY 2009 sample cases.

The following timeline shows the average (1) overall claim time for AC cases by
component processing times, Appeal Time, and Down Time and (2) processing time
reported by SSA. 20
     Claimant                      Average Overall Claim Time for AC Cases (1,164 days)                              Claim
     First                                                                                                           Completed
     Applied
                           DQB - 1 Day
     for
     Disability                                                                                                                  Down Time
                  DDS - 126 Days                                                                           PSC - 5 Days
                                                                                                                                  59 Days

            FO - 62 Days                                     Hearing Of f ice - 572 Days         AC - 236 Days      Appeal Time
                                                                                                                     103 Days


                   100       200         300   400     500        600        700           800      900      1000         1100       1200




                                                              Claimant Requested                             AC Issued
                                                             Review of ALJ Decision                           Decision

                                                         Average Processing Time Reported by
                                                                    SSA (261 days)




18
   Assuming the average overall time of the population of AC cases is normally distributed and using
inferential statistical techniques, we are 90-percent confident the average overall time for the entire
population would be between 1,094 and 1,235 days.
19
   Of the 100 sample cases, the AC either declined to review or upheld the decision in 87 cases, reversed
the decision in 4 cases, and dismissed 9 cases. For the four reversals, it took 72 days, on average, to
initiate payment following the AC decision and an additional 48 days (including mail time and processing
time), on average, to issue the back payments.
20
  In 4 of the 100 sample cases, the claimants requested Federal Reviewing Official (FedRO) reviews,
which replaced reconsiderations in the Boston Region from August 2006 to March 2008 as part of the
Disability Service Improvement initiative. The FedRO reviews in our four sample cases took from 72 to
287 days to complete. Since FedROs were within the hearing office component, we included this time in
the average hearing office processing time of 573 days.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                                                      7
For example, a claimant filed her application in June 2002. The DDS denied her
application (at both the initial and reconsideration levels), and the ALJ upheld the denial
decision. In December 2004, the claimant requested the AC review her case. After
reviewing the case, the AC remanded it to the ALJ, who upheld the denial decision
again. In October 2007, an ALJ returned the case to the AC for review. In
February 2009, the AC upheld the denial decision. It took over 6.5 years to completely
process this claim and over 2.5 years to process the claim from the AC request date to
the AC decision date. While appealing this claim, the claimant filed a new initial claim in
April 2008, which the DDS denied. However, in November 2009, an ALJ reversed the
decision and allowed the claim.

FEDERAL COURT SAMPLE RESULTS

If a claimant is dissatisfied with SSA’s final decision, he or she may file a suit with the
U.S. District Court. The U.S. District Court reviews all evidence on file as well as the
hearing office and AC findings and conclusions. The U.S. District Court has the power
to dismiss, uphold, modify, or reverse SSA’s final decisions and may remand cases to
SSA for further action including a new decision. If the U.S. District Court does not find
in the claimant’s favor, he or she can continue to appeal to other Federal Courts,
including the U.S. Circuit Court of Appeals and the U.S. Supreme Court.

Based on our review of 100 sample cases, we determined it took 1,895 days, 21 on
average, to completely process a disability claim through the Federal Court level—
ranging from over 2 years to about 13 years. 22 SSA has neither control over how long it
takes a Federal Court to review a case and render a decision nor any performance
measures associated with these cases.




21
  Assuming the average overall time of the population of Federal Court cases is normally distributed and
using inferential statistical techniques, we are 90-percent confident the average overall time for the entire
population would be between 1,777 and 2,012 days.
22
  Of the 100 sample cases, the Federal Courts upheld SSA’s decisions in 81 cases, dismissed 7 cases,
and reversed 12 cases. For the 12 reversals, it took 98 days, on average, to initiate payment following
the Federal Court decision and an additional 49 days (including mail time and processing time), on
average, to issue the back payments. The U.S. District Court made the decisions in 96 of the 100 sample
cases, while the U.S. Circuit Court of Appeals made the decisions in the remaining 4 cases.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                     8
The following timeline shows the average overall claim time for Federal Court cases by
component processing times, Appeal Time, and Down Time. 23

 Claimant           Average Overall Claim Time for Federal Court Cases (1,895 days)                                   Claim
 First                                                                                                                Completed
 Applied
 for                                                                                                                              Down Time
                  DDS - 149 Days                                       AC - 286 Days                  PSC - 7 Days
 Disability                                                                                                                        118 Days
              FO - 60 Days         Hearing Of f ice - 632 Days                         Federal Courts - 483 Days
                                                                                                                    Appeal Time
                                                                                                                     160 Days


                  175        350       525         700           875         1050       1225       1400      1575      1750        1925




For example, a claimant filed an application in November 2005. The DDS denied her
application, and the ALJ and AC upheld the denial decision. In March 2008, she filed a
suit with the U.S. District Court, and in December 2009, the U.S. District Court reversed
SSA’s decision and requested SSA award the claimant benefits. In April 2010, the PSC
initiated payment, and in June 2010, it issued the back payments due. It took over
4.5 years for this claim to go through the disability process.




23
  In 1 of the 100 sample cases, the claimant requested a FedRO review, which took 74 days. Since
FedROs were within the hearing office component, we included this time in the average hearing office
processing time of 632 days.


Overall Disability Claim Times for 2009 (A-01-10-10168)                                                                                       9
                                                                Conclusion
We determined the average overall times for disability claims completed in CY 2009.
Compared to our prior review of disability claims completed in CY 2006, the average
overall claim times decreased for DDS-level cases, remained about the same for
hearing-level cases, and increased for AC and Federal Court-level cases.

While our measure tracks the time it takes a person to go through the entire disability
process, SSA’s measures track the time it takes a person to go through specific
segments of the process for the purpose of managing the workloads within each
component. In December 2008 and again in December 2010, SSA informed us that it
would take significant time and resources to redesign the various systems involved in
calculating processing times based on our measure. Therefore, although this
information would help SSA officials and the Congress make decisions about the
disability programs, the Agency informed us that its Office of Systems does not plan to
pursue system changes to implement our suggested measure.

AGENCY COMMENTS
SSA appreciated that we used a different technique (from the Agency) to measure
processing times. However, SSA stated that its measures are equally sound and that it
chooses not to alter its techniques (see appendix G).




Overall Disability Claim Times for 2009 (A-01-10-10168)                               10
                                              Appendices




Overall Disability Claim Time for 2009 (A-01-10-10168)
                                                                     Appendix A

Acronyms
 AC                 Appeals Council
 ALJ                Administrative Law Judge
 ARRA               American Recovery and Reinvestment Act of 2009
 C.F.R.             Code of Federal Regulations
 CY                 Calendar Year
 DCPS               Disability Case Processing System
 DDS                Disability Determination Services
 DI                 Disability Insurance
 DQB                Disability Quality Branch
 eBP                Electronic Business Process
 eCAT               Electronic Claims Analysis Tool
 FedRO              Federal Reviewing Official
 FO                 Field Office
 FY                 Fiscal Year
 MEGAHIT            Medical Evidence Gathering and Analysis Through Health
                    Information Technology
 ODAR               Office of Disability Adjudication and Review
 POMS               Program Operations Manual System
 PSC                Payment Service Center
 Pub. L. No.        Public Law Number
 QDD                Quick Disability Determinations
 SSA                Social Security Administration
 SSI                Supplemental Security Income
 U.S.C.             United States Code




Overall Disability Claim Time for 2009 (A-01-10-10168)
                                                                                       Appendix B

The Social Security Disability Process
The Social Security disability process begins when a person files a disability claim and
does not end until the Social Security Administration (SSA) completes the claim. As a
claim moves through the process, it goes through a network of components, with each
component responsible for some aspect of the claim. The components involved in the
process may include field offices, teleservice centers, disability determination services
(DDS), Disability Quality Branches, Payment Service Centers, hearing offices, the
Appeals Council, and Federal Courts.

Field Office and Teleservice Center Roles

Field offices and teleservice centers perform similar functions. The field offices conduct
business in person, over the telephone, and over the Internet while teleservice centers
conduct business only over the telephone and Internet. The field offices and teleservice
centers help claimants complete applications for disability benefits and requests for
appeals. In addition, they determine whether the claimants meet the non-medical
criteria for benefits, such as insured status (Disability Insurance program) and limited
income and resources (Supplemental Security Income program). They also send the
initial claim and appeal requests to the appropriate components for further processing 1
and may receive them back at some point for final processing. 2

DDS Role

The DDS is generally a State-run agency that makes disability determinations for SSA.
SSA reimburses the State for all allowable DDS expenses and oversees the quality of
the DDS’ work. At most DDSs, a disability adjudicatory team comprises a disability
examiner and medical/psychological consultant, 3 using SSA’s regulations, policies, and



1
 SSA may defer developing whether a person meets the non-medical criteria until it receives a favorable
medical decision from a DDS.
2
 If the field office cannot process or partially processes the claim, it will send the claim to the payment
service center for final processing.
3
 Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists,
podiatrists, and speech-language pathologists employed by the DDS. 20 C.F.R. §§ 404.1616 and
416.1016. See also SSA, POMS, DI 24501.001 C 2. At DDSs that use Single Decision-makers, a
disability examiner can make the disability determination in many cases without approval of a
medical/psychological consultant. On November 12, 2010, the Agency implemented a new regulation to
allow all State Disability Examiners to make fully favorable determinations in certain cases without the
approval of a medical/psychological consultant. Disability Determinations by State Agency Disability
Examiners, 75 F.R. 62676 (October 13, 2010) (to be codified at 20 C.F.R. pts. 404 and 416). See also
SSA, POMS, DI 23023.001.


Overall Disability Claim Time for 2009 (A-01-10-10168)                                                        B-1
procedures, obtains the relevant medical and other evidence and makes a
determination whether a claimant meets the definition of disabled under the Social
Security Act.

Disability Quality Branch Role

SSA is required to report to Congress annually on the benefits and costs of the pre-
effectuation reviews; therefore, the Disability Quality Branches review half of all DDS
allowances. To ensure a high level of accuracy, the Disability Quality Branches review
a statistically valid quality assurance sample of initial and reconsideration allowances
and denials made per calendar quarter per State. For each review, a Federal quality
reviewer determines whether the evidentiary record supports the determination and
whether the evidence and determination conform to SSA’s operating policies and
procedures. If the Disability Quality Branch finds the DDS determination is not
supported, it returns the claim to the DDS to reverse the determination or gather
additional evidence.

Payment Service Center Role

The Payment Service Center processes favorable hearing office decisions, Appeals
Council reviews, and Federal Court decisions. It also processes initial disability
determinations when the field office cannot complete them, such as when the field office
needs assistance in determining the amount of back payments due the claimant.

Hearing Office Role

An administrative law judge (ALJ) generally conducts a hearing at a hearing office.
Before the hearing, the claimant and his or her representative may examine the
evidence used in making the determination under appeal and submit new evidence. At
the hearing, the ALJ can question the claimant and any witnesses the claimant brings.
The ALJ may request other witnesses, such as medical or vocational experts, to testify
at the hearing. The claimant and his or her representative may also question the
witnesses.

The ALJ does not determine whether the DDS’ decision was correct but issues a new
(de novo) decision based on the evidence. If the claimant waives the right to appear at
the hearing, the ALJ makes a decision based on the evidence on file and any new
evidence submitted for consideration.

Under certain circumstances, an attorney advisor may conduct prehearing proceedings
before the hearing. As part of the prehearing proceedings, the attorney advisor, in
addition to reviewing the existing record, may request additional evidence and schedule
a conference with the parties. If after completion of these proceedings the attorney
advisor can make a decision that is fully favorable, an attorney advisor may issue the
decision. 4
4
    20 C.F.R. §§ 404.942 and 416.1442.


Overall Disability Claim Time for 2009 (A-01-10-10168)                                B-2
Appeals Council Role

The Appeals Council consists of administrative appeal judges and appeal officers. A
claimant who is dissatisfied with the hearing office decision can ask the Appeals Council
to review that decision. The Appeals Council may deny, dismiss, or grant a request for
review. If the Appeals Council denies or dismisses the request for review, the hearing
office decision becomes SSA’s final decision. If the Appeals Council grants the request
for review, it can (1) issue its own decision affirming, modifying, or reversing the hearing
office decision or (2) remand the case to the hearing office for a new decision, additional
evidence, or other action. If the Appeals Council issues its own decision, that decision
becomes SSA’s final decision. The Appeals Council may also review a case within
60 days of the hearing office decision on its own motion; that is, without a claimant
requesting the review.

Federal Court Role

If a claimant is dissatisfied with SSA’s final decision, he or she may file a civil action with
the following Federal Courts in this order: U.S. District Court, U.S. Court of Appeals
(Circuit Court), and U.S. Supreme Court. Federal Courts have the power to dismiss,
affirm, modify, or reverse SSA’s final decisions and may remand cases to SSA for
further action, including a new decision. If SSA’s final decision is supported by
“substantial evidence” and consistent with the Social Security Act, the court should
affirm the decision.




Overall Disability Claim Time for 2009 (A-01-10-10168)                                     B-3
                                                                              Appendix C

Agency Initiatives for Improving Processing
Time
Since Calendar Year 2006, the Social Security Administration (SSA) has implemented
or modified a number of initiatives to reduce the amount of time it takes to process
disability claims. We describe these initiatives below.

Plan to Eliminate the Hearings Backlog and Prevent its Recurrence

In his May 23, 2007 testimony to Congress, the Commissioner of Social Security
announced a plan to eliminate the backlog of hearing requests by 2013 and prevent its
recurrence. 1 The Commissioner’s plan focused on a number of initiatives to (1) improve
hearing office procedures, (2) increase adjudicatory capacity, and (3) increase efficiency
with automation and improved business processes. Examples follow.

•   In 2007, SSA implemented the Aged Case initiative to improve hearing office
    procedures. Under this initiative, SSA eliminated cases 1,000 days old and older in
    Fiscal Year (FY) 2007, 900 days old and older in FY 2008, 850 days old and older in
    FY 2009, and 825 days old and older in FY 2010. Additionally, the Agency reported
    that it is on track to eliminate cases 775 days and older in FY 2011.

•   In June 2007, SSA implemented the Informal Remand initiative to increase
    adjudicatory capacity. Under this initiative, SSA allows hearing offices to select
    cases based on certain profiles and return them to the disability determination
    services (DDS) to determine whether a fully favorable determination is appropriate.

•   In FY 2008, SSA began developing the Electronic Business Process (eBP). The
    eBP assists the hearing offices in processing certified electronic folder cases. The
    eBP delineates standardized tasks performed by all hearing office and national
    hearing center personnel in an effort to maximize efficiency and consistency
    throughout the enterprise. All hearing offices now use the eBP system.

Disability Case Processing System

In FY 2007, the Agency proposed developing a common Disability Case Processing
System (DCPS) for the DDSs to position the Agency to leverage emerging technology;
share workloads easily; and facilitate national implementation of policy changes. The
Agency formed a Steering Committee (consisting of representatives from the regional
offices, State DDSs, and Headquarters) to lead the effort. In November 2007, the

1                                                                                    th
 Funding Social Security’s Administrative Costs: Will The Budget Meet The Mission?, 110 Cong.
110-715 (2007) (Written statement of Michael J. Astrue, Commissioner of Social Security).


Overall Disability Claim Time for 2009 (A-01-10-10168)                                          C-1
Steering Committee held a summit to obtain input from the DDS community regarding
the viability of developing a common DCPS. In May 2008, the DDS community
overwhelmingly supported moving forward with the project. In February 2009, subject
matter experts from every DDS along with representatives from the Office of Disability
Adjudication and Review (ODAR) and other SSA components met and developed a
“To-Be” model. In August 2009, the requirement solicitation sessions began. The
Agency expects to release a test model for this project in 2011. On
December 21, 2010, SSA awarded the contract for building DCPS to Lockheed Martin
Corporation.

Quick Disability Determinations

In August 2006, SSA implemented a computer process known as Quick Disability
Determinations (QDD) in the Boston Region. In FY 2008, the Agency implemented the
process nationwide. This process uses a predictive model to identify claims in which it
is highly probable the claimant is disabled and the claimant’s allegations can be easily
and quickly verified so the claim can be processed within 20 calendar days of receipt in
the DDS. 2

Compassionate Allowances

In October 2008, SSA implemented the Compassionate Allowance process, which
quickly identifies claims electronically involving diseases and other medical conditions
that are so severe that they clearly meet SSA’s definition of disability. Like QDD, this
process uses a predictive model, but it is simpler—selecting claims based solely on the
claimant’s allegation of having a disease or other medical condition in the Agency’s list
of Compassionate Allowance conditions.3

Single Decision-makers

Since 1997, SSA has been piloting the use of Single Decision-makers in certain DDSs. 4
Single Decision-makers are disability examiners who can generally make disability
determinations without sign-off by a medical/psychological consultant. 5 On
November 12, 2010, the Agency implemented a new regulation to allow State Disability


2
    In May 2009, we issued the report, National Rollout of Quick Disability Determinations (A-01-09-19030).
3
    In August 2010, we issued the report, Compassionate Allowance Initiative (A-01-10-21080).
4
 These DDSs are located in Alabama, Alaska, California (Los Angeles North and Los Angeles West
Branches), Colorado, Florida, Guam, Kansas, Kentucky, Louisiana, Maine, Michigan, Missouri, Nevada,
New Hampshire, New York, North Carolina, Pennsylvania, Vermont, Washington, and West Virginia.
5
 Medical/psychological consultant refers to physicians, psychologists, psychiatrists, optometrists,
podiatrists, and speech-language pathologists employed by the DDS. 20 C.F.R. §§ 404.1616 and
416.1016. See also SSA, POMS, DI 24501.001 C 2.



Overall Disability Claim Time for 2009 (A-01-10-10168)                                                  C-2
Examiners to make fully favorable determinations in certain QDD and Compassionate
Allowance cases without the approval of a medical/psychological consultant. 6

Listing of Impairments

SSA’s Listing of Impairments (Listings) describes impairments considered severe
enough to prevent an adult from doing any gainful activity or to cause marked and
severe functional limitations in an individual younger than 18 years old. These Listings
help SSA to more quickly identify individuals who are clearly disabled. The Agency is
updating the Listings.

Electronic Health Records

In FY 2008, the Agency implemented the Medical Evidence Gathering and Analysis
Through Health Information Technology (MEGAHIT) prototype. This computer process
automatically requests and receives standardized electronic health records. Once
received, MEGAHIT analyzes the records and sends an alert to the DDS whether the
claim might be an allowance according to SSA’s Listings.

In August 2008, SSA began piloting MEGAHIT with Beth Israel Deaconess Medical
Center in the Massachusetts DDS. In February 2009, the Agency began piloting
MEGAHIT with MedVirginia in the Virginia DDS to obtain information from additional
providers through the Nationwide Health Information Network, which connects diverse
entities that need to exchange health information. Later, the Agency added the
Richmond, Virginia, and Boston, Massachusetts, Hearing Offices to the pilot.

Electronic Claims Analysis Tool

In 2006, SSA began testing the Electronic Claims Analysis Tool (eCAT) for the DDSs.
The eCAT is a Web-based application that assists disability adjudicators in the analysis,
documentation, and adjudication of disability claims in accordance with regulations. It
also provides links to references, such as pertinent regulations and Social Security
rulings, and produces an explanation for the disability determination. In May 2007,
two DDSs began piloting eCAT. Later, several other DDSs joined the pilot. In
December 2009, SSA’s Commissioner announced eCAT’s national rollout. In
July 2010, the Agency released a new version of eCAT, which contained advanced
functionality for the DDSs. It was also the initial release for the hearing offices.7




6
 Disability Determinations by State Agency Disability Examiners, 75 F.R. 62676 (October 13, 2010) (to
be codified at 20 C.F.R. pts. 404 and 416). See also SSA, POMS, DI 23023.001.
7
 In January 2011, we issued the report, The Social Security Administration’s Electronic Claims Analysis
Tool (A-01-10-11010).



Overall Disability Claim Time for 2009 (A-01-10-10168)                                               C-3
Recovery Act Initiatives

The American Recovery and Reinvestment Act of 2009 (ARRA) provided SSA with
$500 million to help address the increasing disability and retirement workloads. With
these funds, SSA’s disability and retirement operations hired 1,530 new employees in
local field offices, teleservice centers, and processing service centers, and 300 new
employees in the State DDSs. 8 SSA also reported that ODAR hired 147 new
administrative law judges and 1,322 hearing office support staff (including 506 decision
writers and 392 other support staff).

Additionally, in FY 2009, the Agency invested about $13 million in ARRA funds in
information technology that included video conference equipment for hearing offices
and workstations. The Agency also invested over $17 million in ARRA funds for health
information technology contracts with the health care community to provide electronic
health records. Finally, in FY 2010, the Agency invested additional ARRA funds to add
13 new hearing offices (1 was an expansion of a satellite office) and 3 new satellite
offices. It plans to add another eight hearings offices in FY 2011.

Disability Direct

In FY 2010, SSA began implementing Disability Direct. 9 This initiative will increase the
number of disability claims and appeals filed online.

•   Individuals will be able to access a new online application for disability benefits,
    which will be easier to use than the current application and will include links,
    prompts, and other tools to assist them.

•   Appointed representatives will be able to register online for services, such as
    accessing electronic folders for cases pending at the hearing level and uploading
    evidence to the electronic folders.

• Third parties and medical care providers will be able to provide information
  electronically to SSA on behalf of individuals filing for disability benefits. SSA is
  facing some challenges with the implementation of this part of the initiative, such as
  privacy issues and the authorization for releasing medical records.




8
 In November 2009, we issued the report, The Office of Operations’ Staffing Plans Under the American
Recovery and Reinvestment Act of 2009 (A-09-09-29157).
9
 We are conducting a review, Controls over Social Security Internet Benefit Applications
(A-09-11-21165).


Overall Disability Claim Time for 2009 (A-01-10-10168)                                            C-4
Integrated Disability Process

The Integrated Disability Process is a Deputy Commissioner initiative that will identify
and resolve long-standing disability policy and procedural issues. The overarching goal
is to engage all disability components in making the best possible decisions for the
Agency by having clear, consistent disability policy and procedures.




Overall Disability Claim Time for 2009 (A-01-10-10168)                               C-5
                                                                                   Appendix D

Scope, Methodology, and Sample Results
To achieve our objective, we:

    •   Reviewed the Social Security Act and Social Security Administration (SSA)
        regulations, rules, policies, and procedures on disability case processing and
        routing.

    •   Reviewed SSA's Performance and Accountability Reports for Fiscal Years 2006
        and 2009 and the Office of the Inspector General’s report, Disability Claims
        Overall Processing Times (A-01-08-18011), December 2008.

    •   Obtained data files of all disability decisions made in Calendar Year (CY) 2009.
        From these files, we identified the latest decision on a claim. We then excluded
        any decision to remand a claim to a lower adjudicative level. Through this
        analysis, we identified
         2,838,641 individuals who received initial/reconsideration determinations from
          the disability determination services (DDS); 1
         620,007 individuals who received decisions from a hearing office;
         69,897 individuals who received decisions from the Appeals Council (AC);
          and
         6,041 individuals who received decisions from the Federal Courts.

    •   Randomly selected 275 sample cases from the DDS population and 100 sample
        cases from each of the other populations—for a total of 575 cases. For each
        case, we:
         Reviewed records from SSA’s systems, such as the DDS and Office of
          Hearings and Appeals Queries.
         Reviewed documents in SSA’s electronic disability folder.
         Identified the primary diagnosis.
         Calculated the number of days from the date of application to the date of
          denial or the date SSA paid all benefits due at the time of allowance. 2


1
 Some of these individuals had a DDS reconsideration determination in 2009, but the initial determination
was in 2008.
2
 We did not do this calculation in cases such as those where we could not obtain either of these dates.
When we could not do the calculation in a case, we replaced it with another case. In total, we replaced
one DDS case, two hearing cases, four AC cases, and seven Federal Court cases.


Overall Disability Claim Time for 2009 (A-01-10-10168)                                                D-1
   •   Used the results of these calculations to determine the average overall time of
       disability claims.

   •   Determined the average (1) processing time within each component and
       (2) processing time of initial disability claims, hearing decisions, and Appeals
       Council decisions based on SSA’s performance measures.

We conducted our audit between September 2010 and January 2011 in Boston,
Massachusetts. The entities audited were SSA's field offices, DDSs, and Payment
Service Centers under the Deputy Commissioner for Operations; SSA’s Disability
Quality Branches under the Deputy Commissioner for Quality Performance; and SSA’s
administrative law judges and AC under the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

SAMPLE RESULTS

                   Table D-1: 2009 Initial Disability Determinations
 Population size                                                             2,838,641
 Sample size                                                                       275
                                     Overall Claim Time
 Average Overall Claim Time                                                   119 days
 Lower Limit                                                                  113 days
 Upper Limit                                                                  125 days
       Note: The limits above reflect a 90-percent confidence interval.

                       Table D-2: 2009 Hearing Office Decisions
 Population size                                                               620,007
 Sample size                                                                       100
                                    Overall Claim Time
 Average Overall Claim Time                                                   812 days
 Lower Limit                                                                  768 days
 Upper Limit                                                                  855 days
       Note: The limits above reflect a 90-percent confidence interval.




Overall Disability Claim Time for 2009 (A-01-10-10168)                                    D-2
                      Table D-3: 2009 Appeals Council Decisions
 Population size                                                             69,897
 Sample size                                                                    100
                                     Overall Claim Time
 Average Overall Claim Time                                               1,164 days
 Lower Limit                                                              1,094 days
 Upper Limit                                                              1,235 days
       Note: The limits above reflect a 90-percent confidence interval.

                       Table D-4: 2009 Federal Courts Decisions
 Population size                                                              6,041
 Sample size                                                                    100
                                     Overall Claim Time
 Average Overall Claim Time                                               1,895 days
 Lower Limit                                                              1,777 days
 Upper Limit                                                              2,012 days
       Note: The limits above reflect a 90-percent confidence interval.




Overall Disability Claim Time for 2009 (A-01-10-10168)                                 D-3
                                                                          Appendix E

Sample Cases by Body System and Primary
Diagnosis
The Social Security Administration’s (SSA) Listing of Impairments describes
impairments considered severe enough to prevent an adult from doing any gainful
activity or to cause marked and severe functional limitations in a child younger than
18 years old. Most of the listed impairments are permanent or expected to result in
death; however, some include a specific statement of duration. For all others, the
evidence must show the impairment has lasted or can be expected to last for a
continuous period of at least 12 months.

The Listings are organized by major body systems—14 for adults (Part A) and 15 for
children (Part B), but adult criteria can be applied to children if the disease processes
have a similar effect on adults and children (see Table E-1). Altogether, SSA has over
100 listed impairments.

              Table E-1: SSA’s Listing of Impairments by Body System
                      Adults                                     Children
                                                  100.00 Growth Impairment
   1.00 Musculoskeletal System                    101.00 Musculoskeletal System
   2.00 Special Senses and Speech                 102.00 Special Senses and Speech
   3.00 Respiratory System                        103.00 Respiratory System
   4.00 Cardiovascular System                     104.00 Cardiovascular System
   5.00 Digestive System                          105.00 Digestive System
   6.00 Genitourinary Impairments                 106.00 Genitourinary Impairments
   7.00 Hematological Disorders                   107.00 Hematological Disorders
   8.00 Skin Disorders                            108.00 Skin Disorders
   9.00 Endocrine System                          109.00 Endocrine System
   10.00 Impairments that Affect Multiple         110.00 Impairments that Affect Multiple
          Body Systems                                   Body Systems
   11.00 Neurological                             111.00 Neurological
   12.00 Mental Disorders                         112.00 Mental Disorders
   13.00 Malignant Neoplastic Diseases            113.00 Malignant Neoplastic Diseases
   14.00 Immune System Disorders                  114.00 Immune System Disorders




Overall Disability Claim Time for 2009 (A-01-10-10168)                                      E-1
        Sample Cases by Body System and Primary Diagnosis
        To perform this review, we obtained files of all disability decisions made in Calendar
        Year 2009. From these files, we randomly selected

        •   275 individuals who received initial/reconsideration determinations from disability
            determination services (DDS),
        •   100 individuals who received decisions from hearing offices,
        •   100 individuals who received decisions from the Appeals Council (AC), and
        •   100 individuals who received decisions from the Federal Courts.

        Within each of our samples, the majority of claims had a primary diagnosis under the
        Musculoskeletal System and Mental Disorders body systems, as shown in Table E-2.

                      Table E-2: Sample Cases by Component and Body System
                              DDS Initial Claims        Hearing Office                  AC             Federal Courts
    Body System                           Average                 Average                 Average               Average
                              Cases                   Cases                   Cases                   Cases
                                           Days                    Days                    Days                  Days
Musculoskeletal System             58          114         41          762         35        1,193        55          1,951
Mental Disorders                   89          133         23          885         35        1,188        19          1,784
All Other Body Systems            128          112         36          821         30        1,103        26          1,856
Total/Average Per
                                  275          119       100           812       100         1,164      100           1,895
Sample

        Within each of our samples, the most commonly occurring primary impairments were
        Disorders of Back (under the Musculoskeletal System) and Affective Disorders (under
        Mental Disorders), as shown in Table E-3. 1

                             Table E-3: Sample Cases by Primary Impairment
                              DDS Initial Claims        Hearing Office                  AC             Federal Courts
 Primary Impairment
                                     Cases                   Cases                   Cases                  Cases
Disorders of Back                    26       10%            24       24%            21       21%          29          29%
Affective Disorders                  39       14%            11       11%            16       16%          12          12%
All Others                          210       76%            65       65%            63       63%          59          59%
Total                               275     100%           100      100%           100       100%        100          100%




        1
          Affective disorders are psychiatric diseases with multiple aspects, including biological, behavioral,
        social, and psychological factors. Major depressive disorder, bipolar disorders, and anxiety disorders are
        the most common affective disorders.


        Overall Disability Claim Time for 2009 (A-01-10-10168)                                                  E-2
                                                                                   Appendix F

Sample Hearing Office Cases with and Without
Reconsideration Determinations
In most cases, an individual who disagrees with the Social Security Administration’s
(SSA) determination on his or her initial disability claim may request up to three levels of
administrative review: (1) reconsideration by the disability determination services
(DDS), (2) hearing by an administrative law judge, and (3) review by the Appeals
Council. However, the reconsideration step is eliminated for DDSs participating in the
Disability Redesign Prototype (Alabama, Alaska, California—Los Angeles North and
Los Angeles West Branches, Colorado, Louisiana, Michigan, Missouri, New Hampshire,
New York, and Pennsylvania).

Of the 100 hearing office cases we sampled, 65 had reconsideration determinations on
the disability claims and 35 did not. 1 The cases with reconsiderations took 842 days, on
average, to complete through the hearing level while cases without reconsiderations
took 755 days, on average, to complete through the hearing level. Although, it took
87 days longer, on average, to complete cases with reconsiderations than it did to
complete cases without reconsiderations, SSA allowed both groups of cases at a similar
rate, as shown in the table below.

                              Decisions on Hearing Office Cases
                              Cases with               Cases without
          Decision                                                                   Total
                           Reconsiderations           Reconsiderations
        Allow                    44           68%            25       71%          69      69%
        Deny                     13           20%             6       17%          19      19%
        Dismiss                    7          11%             3         9%         10      10%
        Withdraw                   1           1%             1         3%          2        2%
        Total                    65         100%             35      100%        100     100%




1
  According to the latest data available from SSA, about 68 percent of hearing office cases had
reconsideration determinations on disability claims that were filed in Calendar Year 2006 and 32 percent
did not.


Overall Disability Claim Time for 2009 (A-01-10-10168)
                                                         Appendix G

Agency Comments




Overall Disability Claim Time for 2009 (A-01-10-10168)
                                       SOCIAL SECURITY
MEMORANDUM


Date:      May 16, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Overall Disability Claim Times for 2009”
           (A-01-10-10168)--INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, Director, Audit Management and Liaison Staff, at (410) 966-5787.

           Attachment




           Overall Disability Claim Time for 2009 (A-01-10-10168)                                         G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“OVERALL DISABILITY CLAIM TIMES FOR 2009” (A-01-10-10168)

Your study confirms that we continue to improve the speed of our disability processes. We have
achieved successes despite unprecedented growth in the number of disability claims received.

We offer the following comment on a specific section of your report.

Page 10, Conclusion

“While our measure tracks the time it takes a person to go through the entire disability process,
SSA’s measures track the time it takes a person to go through specific segments of the process
for the purpose of managing the workloads within each component. According to SSA, it would
take significant time and resources to redesign the various systems involved in calculating
processing times based on our measure. Therefore, although this information will help SSA
officials and the Congress make decisions about the disability programs, the Agency informed us
that its Office of Systems does not plan to pursue system changes to implement our suggested
measure.”

Comment

We appreciate that you used a different technique in compiling your data. However, our
measures are equally sound, so we choose not to alter our techniques. Your approach would not
yield better information.




[SSA provided additional comments that were technical in nature, which we
incorporated in the report where appropriate.]




Overall Disability Claim Time for 2009 (A-01-10-10168)                                       G-2
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

   David Mazzola, Audit Manager

Acknowledgments
In addition to those named above:

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   Toni Paquette, Program Analyst

   Frank Salamone, Senior Auditor

   David York, Program Analyst

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-10168.




Overall Disability Claim Time for 2009 (A-01-10-10168)
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
